Immigration and Naturalization Service Management of Property
Return to the USDOJ/OIG Home Page
Immigration and Naturalization Service Management of Property
Report No. 01-09March 2001
Office of the Inspector General
TABLE OF CONTENTS
EXECUTIVE SUMMARY
INTRODUCTION
FINDINGS AND RECOMMENDATIONS
I.  INS MANAGEMENT OF PROPERTY WAS INADEQUATE
Background
Accuracy of Data in AMIS
Completeness of AMIS - Walk-through Inventory
Completeness of AMIS - Locally Purchased Property
Property Management Policies and Procedures
Recent INS Initiatives
OIG Conclusion
Recommendations
II.	INS WEAPONS LINKED TO SERIOUS CRIMES
Background
OIG Analyses
Recent INS Initiatives
OIG Conclusion
Recommendations
SCHEDULE OF DOLLAR-RELATED FINDINGS
APPENDIX     I - AUDIT OBJECTIVES, SCOPE AND METHODOLOGY
APPENDIX    II - INS SITES REVIEWED
APPENDIX   III - SUMMARY OF MAJOR TESTS BY LOCATION
APPENDIX   IV - STATISTICAL SAMPLING MODEL
APPENDIX    V - LOST, MISSING, OR STOLEN INS WEAPONS BY LOCATION
APPENDIX   VI - INS COMMENTS ON THE REPORT
APPENDIX  VII - OIG, AUDIT DIVISION ANALYSIS AND SUMMARY OF	ACTIONS NECESSARY TO CLOSE REPORT